                             Office of Inspector General
                             Legal Services Corporation




Inspector General
Jeffrey E. Schanz

3333 K Street, Nw, 3rd Floor
Washington, DC 20007-3558
202.295. 1660 (p) 202.337.6616 (f)
www.oig. lsc.gov

           September 30, 2013



           Mr. Norman P. Metzger
           Executive Director
           Indiana Legal Services, Inc.
           151 N. Delaware Street, Suite 1850
           Indianapolis, IN 46204

           Dear Mr. Metzger:

           Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected Internal Controls
           at Indiana Legal Services, Inc. (IL5). The OIG has reviewed your comments on the draft report findings
           and recommendations and has determined that the actions ILS has planned are responsive to the
           recommendations . All 12 recommendations will remain open until notified in writing that the grantee's
           Accounting Manual has been updated and communicated to ILS staff. The OIG is referring $4,159 in
           questioned costs to LSC Management for their determination. These costs involved expenditures of LSC
           funds that were identified as unallowable or unsupported.

           The full text of your comments is included in the report as Appendix II.

           We thank you and your staff for your cooperation and assistance.

           Sincerely,




        ~   e
              .     -;::>


                  E. Schanz
           Inspector General
                            c':   ~... - c_.
                                  •   .   •.•.•   ~ •. . -.




           Enclosure

           Cc:       Legal Services Corporation
                     Jim Sandman, President

                      Lynn Jennings, Vice President
                       For Grants Management




                                                                                                      =I!:LSC
                                                                                                      II Am~.k,,·. T':>.rtner For Equ.J Juni«
    LEGAL SERVICES CORPORATION

    OFFICE OF INSPECTOR GENERAL




FINAL REPORT ON SELECTED INTERNAL
            CONTROLS


  INDIANA LEGAL SERVICES, INC
              RNO 515030




           Report No. AU 13-08

            September 2013

             www.oig.lsc.gov
                                  INTRODUCTION


The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Indiana Legal Services (ILS or
grantee), Indianapolis, Indiana, related to specific grantee operations and oversight.
Audit work was conducted at the grantee's main office in Indianapolis, Indiana, and at
LSC headquarters in Washington, DC.

According to LSC's grant award letter, for calendar year 2012, ILS received over
$4 .7 million for the Basic Field grant and $107,097 for the Migrant grant. For the
calendar year 2013, ILS was awarded over $5.0 million for Basic Field grant and
$104,899 for the Migrant grant. Non-LSC funding for calendar year 2012 was
approximately $2.9 million according to LSC Grantee Profile, Funding Data on LSC's
website.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee " ... is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows :

      [T]he process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the prograrn.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely ...
upon its own systern of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and rneeting the complete financial
information needs of its management.


                                     OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at ILS as the controls related to specific grantee operations and oversight, including
program expenditures and fiscal accountability. Specifically, the audit evaluated
selected financial and administrative areas and tested the related controls to ensure that
costs were adequately supported and allowed under the LSC Act and LSC regulations.




                                            1
                             OVERALL EVALUATION

While many of the controls were adequately designed and properly implemented as the
controls related to specific grantee operations and oversight, the grantee needs to place
more emphasis on establishing and documenting some internal controls. The OIG
tested 94 disbursements and of that amount, 26 disbursements (27.6 percent), totaling
over $6,900 , were unallowable, unsupported , or not properly processed.

The grantee's current practices involving soliciting and awarding contracts were
generally in accordance with the LSC's Fundamental Criteria . However, grantee's
written policies and procedures relating to soliciting and awarding contracts need to be
revised to include all components of the Fundamental Criteria.

ILS has policies and procedures over the use of the corporate credit cards in its
Accounting Manual. A review of the credit card statements confirmed that the grantee
uses a credit card log that lists all the purchases made for the period with appropriate
approvals. However, the grantee did not have an adequate practice over the use of its
gas credit cards. Additionally, the grantee needs to develop written policies and
procedures over the use of the gas cards.

While the cost allocation process appeared to be reasonable , written procedures
relating to cost allocation were not adequate. The procedures need to provide sufficient
details , as required by the LSC Accounting Guide, fully describing how costs are
allocated .

The grantee did not have written policies regarding accounting for derivative income.
While the amounts received for derivative income during the period under audit were
minimal, the potential for receiving additional derivative income has increased due to
regulatory changes that permit the acceptance of attorney's fees. Written policies and
procedures will help ensure that the grantee properly accounts for and allocates these
fees when received .

Finally, our review noted that the grantee's fixed assets policies and procedures
contained in its Accounting Manual were mostly comparable to LSC Fundamental
Criteria except for a lack of policies on disposal of ILS property and reconciliation of
physical inventory count with property records . However, management was not
following some of its own policies in practice, in that inventories were not conducted
biennially, inventory count sheets were not fully annotated, and tag numbers were not
recorded in the property records . Also, the physical inventory results were not
reconciled with property records.




                                            2
                                      AUDIT FINDINGS

DISBURSEMENTS

Of the 94 disbursements tested, 26 disbursements , valued at $6,968, were not allowed,
inadequately supported, or not properly processed. Our testing noted 8 disbursements
that were unallowable, 4 that were unsupported, and 14 that were inappropriately
processed ' . Ensuring allowable costs, maintaining adequate supporting documentation
and preparing purchase documents appropriately helps to ensure that funds are only
used for authorized purposes.

The Controller stated that the unallowable and unsupported disbursements were due to
oversight. The grantee's Accounting Manual included a section that prohibited LSC
funds from being used for restricted purchases (alcohol was provided as an example) .
The Controller also stated that the employees were aware of all restricted purchases
and that the noted unallowable disbursements were due to oversight.

The inappropriately processed purchase orders originated from one branch office. The
Controller stated that the office had been counseled against this practice but there had
been no change.

LSC Regulation 45 CFR Part 1630, Costs Standards and Procedures, among other
requirements , provides that expenditures by a grantee be reasonable and necessary for
the performance of the grant or contract and adequately documented .               The
Fundamental Criteria also states that disbursements require adequate documentation
supporting the reason for each disbursement contained in the files. Also, the ILS
Accounting Manual , paragraph 3.4, states that three copies of a sequentially numbered
purchase order is generated by each office and that purchase orders must be approved
by the managing attorney. One copy of the purchase order is sent to the vendor, one to
administration, and one to a file at the local office.

Unallowable Costs

LSC funds were used to pay for eight disbursements, totaling $667, that were
unallowable.
   • Four disbursements totaling $363, to purchase flowers for bereaved employees
      and members of the Board upon their loss of a family member.
   • Four disbursements totaling $304, to pay late fee charges incurred on credit
      cards and gas cards.




1 Based on information received in management comments and management's statements that all items
and services were received , we are not questioning the cost. However, the finding and recommendation
still remain .




                                                  3
Unsupported Costs

Supporting documentation was missing for four disbursements (representing five
transactions) of LSC funds totaling $3,492:
    • Employee/intern reimbursement totaling $55 for attending a conference.
    • Employee reimbursement totaling $13 for a luncheon .
    • Luncheon costs totaling $46 and $500 respectively paid for with LSC funds did
       not have the business purpose and names of people in attendance included with
       the receipt.
    • Moving and storage expenses totaling $2,878 without a statement of work,
       signed by grantee management to support the amount paid , detailing the number
       of hours and workers needed to accomplish the task.

Inappropriately Prepared Purchase Orders

Purchase orders were not prepared in accordance with the grantee's purchasing
procedures for 14 disbursements totaling $2 ,809.
   • Eight purchase orders totaling $1,185 had no description of products purchased
      and instead had "see attached" denoted. The attachment referred to the invoice
      for the purchase . This implies that the purchase order was not prepared until
      after the items were ordered .
   • Six purchase orders totaling $1,624 were dated after the order was placed to the
      vendor. This implies the purchase order was prepared after the purchase
      request.

Additionally, we noted that the grantee did not mark invoices as paid or otherwise
cancelled. Of the 94 transactions tested , none of the invoices and other supporting
documentation that were approved for payment were marked "paid ." The controller
stated that they had been stamping the invoices with a paid stamp a while back but
stated that they had stopped doing it for no particular reason . Annotating the invoice
and supporting documentation that the vendor has been paid helps ensure that
duplicate payments are not made.

While the questioned cost amounts are not very large , the lack of controls that allowed
these errors is of concern . Therefore, because the 12 disbursements were not allowed
or inadequately supported within the meaning of 45 CFR §1630.2, the OIG is
questioning $4 ,159 charged to LSC funds . The OIG will refer the questioned costs to
LSC management for review and action.

Recommendation 1: The Executive Director should ensure that staff members follow
ILS established policies and procedures.




                                           4
GAS CREDIT CARDS

The grantee did not have adequate controls over the use of gas credit cards .
Specifically, the grantee did not have written policies and procedures to govern the use
of the gas credit cards. In addition, the grantee did not have a process in place to
ensure that the cards and related gas purchases were used only for business purposes.

The grantee had three gas credit cards . One card was controlled by the Director of
Administration and the other two by the Director of Migrant Farmworker Project.
According to the grantee, the gas credit cards were used to fuel personal cars for travel
to offsite locations . The two cards held by the Director of Migrant Farmworker Project
were used by summer interns who travel to remote locations . While a sign-out sheet
was used to document when the cards were given to the interns, controls were not in
place to ensure that the gas purchased for personal vehicles was reasonable for the
business to be conducted . According to the Controller, the program felt that since the
gas card could only be used for gas there was no need for policies.

While restricting the card to gas purchases only provides control over what can be
purchased . This, by itself, does not prevent the purchase of gas exceeding what is
necessary to conduct business or to prevent the purchase of gas for personal use.
Properly controlling gas purchases through written policies and sound practices helps
reduce the potential for misuse and protects the grantee's limited assets.

Recommendations: The Executive Director should :

    Recommendation 2: develop written policies and procedures that govern the use of
    the gas cards and ensure proper accountability of the gas purchases.

    Recommendation 3: develop a reimbursable system based on mileage claims that
    ensures gas purchases are for business purposes. An example would be the use
    of a travel reimbursement system that uses a fixed rate per mile and a form that
    captures the following information :
        a. purpose and location of the business trip
        b. business miles per trip
        c. a computation of the business miles driven times the fixed rate per mile
        d. dollar amount of gas purchased using the grantee gas card (receipts
            required)
        e. a computation of amount owed to or by the traveler (item c minus item d)
        f. signature blocks for both the traveler making the claim and the manager
            approving the claim .




                                            5
WRITTEN POLICIES

Operating practices for some areas reviewed were not documented in the grantee's
Accounting Manual to comply with the Fundamental Criteria contained in the LSC
Accounting Guide. The Accounting Manual documents the policies and procedures to
be followed by I LS staff in meeting the objectives and criteria of LSC and its other
funding sources. The grantee's current practices in use involving contracting , cost and
cost allocation generally conformed to the Fundamental Criteria, but these practices
need to be fully documented . Additionally, the grantee's derivative income practice
needs to be fully documented .

Contracting policies did not include all necessary requirements of LSC's Fundamental
Criteria. The written policies did not include procedures for various types of contracts;
competition requirements; dollar thresholds for approvals; documentation requirements
to support contracting decisions and contract modifications; and contract oversight
responsibilities. For the seven contracts reviewed , adequate documentation was on file
supporting contract decisions and payments made to the vendor agreed with contract
terms.

The cost allocation process appears to be reasonable as indirect costs are allocated to
each funding source based on direct costs incurred by each source . While the
grantee's Accounting Manual did address its allocation system, the written procedures
did not fully describe the process as practiced by the grantee. Direct costs were
determined by the percent of time staff members were assigned to specific grants.
Indirect expenses for each office were apportioned to the grants based on the direct
cost percentages. The OIG noted that allowable indirect costs incurred by the
administrative office were almost all charged to LSC grant funds rather than allocating
the indirect costs to all funders based on the overall percentage of direct cost for each
funder. Since the administrative office provides services to all offices and funders , the
indirect costs incurred by the administrative office should be allocated to each grant's
funds based on an equitable distribution system.

The grantee received derivative income in the form of interest and attorney's fees. The
grantee had a practice of allocating 100 percent of the interest and attorney's fees to
LSC. However, the policies and procedures on how to allocate derivative income were
not documented. Because the potential for attorney's fees has increased due to
regulatory changes, written policies and procedures will help ensure that the grantee
properly accounts for and allocates these fees when received.

Without adequate written policies and procedures in place, transactions may be initiated
and recorded that violate management intentions, or possibly laws or grant restrictions.
Written policies and procedures also serve as a method to document the design of
controls and to communicate the controls to the staff.




                                            6
Recommendations: The Executive Director should :

   Recommendation 4: ensure written policies and procedures for contracting address
   all required areas contained in LSC's Fundamental Criteria.

   Recommendation 5: ensure written policies and procedures for cost allocation are
   revised to fully describe the process as practiced by the program.

   Recommendation 6: ensure indirect costs in the administrative office are allocated
   based on the direct time percentage for the grant.

   Recommendation 7: develop written policies for derivative income that ensure such
   income is properly accounted for and allocated to funding sources.


FIXED ASSETS

ILS fixed assets written policies and procedures were mostly comparable to LSC
Fundamental Criteria except for lack of policies on disposal of ILS property.
Notwithstanding, grantee management was not following some of its own policies.

  a. Inventories were not conducted at least once every two years in some branch
     offices as required by the Fundamental Criteria. Of the nine branch offices
     reviewed , ILS did not conduct regular biennial inventories for four of the branch
     offices. The Controller stated that this was caused by difficulty in coordinating
     schedules of staff conducting the inventory counts.

  b. ILS inventory count sheets are not fully completed . A review of the Excel
     spreadsheet used for recording physical inventory noted that items marked by an
     "X" are items that are included in the count; items that are disposed of are marked
     "Disposed". However, some items on the inventory count sheets were not
     annotated and we were unable to determine if that meant they were missing at the
     time of count or not counted due to other reasons. Of the nine items reviewed ,
     five items were not annotated on the physical inventory count sheet. Therefore,
     we could not determine if the items were counted or missing at the time the
     inventory was taken. We did confirm that the items not annotated were on hand
     and located in the Administration building .

  c. ILS property records (Fixed Asset System) did not include a unique identifier,
     such as a tag number as required by LSC Fundamental Criteria . The unique
     identifier allows the grantee to easily trace items from the inventory count to the
     property record. The grantee's inventory count sheets had a tag number but the
     property records did not include the tag number. According to the Controller, the
     grantee did not think it was relevant to have the tag number in the Fixed Asset
     System as they thought items could be searched by other means such as date,
     description or amount of purchase.



                                           7
Finally, the grantee did not reconcile the results of the physical inventory count to the
property records. According to the Controller, the grantee was not aware that a
reconciliation of physical inventory results to property records was required. In addition ,
there were no written policies and procedures to cover the physical inventory
reconciliation.

Properly accounting for fixed assets enables the grantee to safeguard the assets, fully
account for the assets purchased, and support reconciliations so that property asset
balances are accurate .

Recommendations: The Executive Director should :

   Recommendation 8: develop written policies on disposal of ILS property and
   reconciliation of physical inventory count with property records.

   Recommendation 9: develop compensating inventory procedures if grantee staff is
   not available to conduct a full and independent inventory. Some compensating
   procedures could be to independently inventory high value and sensitive assets or
   recruit volunteers to conduct the physical inventory.

   Recommendation 10: improve the physical inventory count process to ensure that
   all items on inventory count sheets have annotations to indicate the results of the
   inventory.

   Recommendation 11 : update the property records to include tag numbers as
   required by LSC Fundamental Criteria and also to enable the grantee to easily trace
   items from the inventory count sheets to the property records.

   Recommendation 12: ensure that the results of physical inventory counts are
   reconciled with property records so as to address any differences between quantities
   determined by the inventory and those shown in the accounting records.




                                             8
          SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management agreed with the findings and recommendations contained in the
report. Grantee management stated its Accounting Manual will be updated to address
deficient policies and procedures listed in the report. Management also submitted
additional documentation and explanations to support some disbursements that the OIG
questioned. Our evaluation of the additional information is discussed below.
Management's formal comments can be found at Appendix II. Appendix II does not
include the additional supporting documents provided by management.


       OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

The OIG considers grantee management's actions planned responsive to the findings
and recommendations contained in the report. The actions planned by grantee
management to revise and update its Accounting Manual should correct the issues
identified in the report. The OIG considers all 12 recommendations open until notified in
writing that the grantee's Accounting Manual has been updated and communicated to
ILS staff. However, we do provide the following information for three of management's
comments.

Disbursements

   •   Management provided a document as evidence that a disbursement, questioned
       by the OIG, for moving and storage expenses was sufficient to support the
       expenditure. However, the document provided did not pertain to the same
       transaction that the OIG identified and therefore the disbursement remains a
       questioned cost.

   •   While agreeing that the purchase orders were not prepared in advance,
       management asserted that all items ordered were reviewed by the grantee.
       Because of management's assertion and other related information, the OIG is no
       longer questioning the associated costs and will reduce the amount referred to
       LSC management by $2,809. However, the finding and recommendation remain
       unchanged .

Gas Credit Cards

   •   Management comments indicated that a system was in place for summer interns
       employed by the grantee's Migrant Farm Worker Law Center to reconcile gas
       credit card purchases for their personal vehicle and miles driven on official
       business. The comments contained a statement on how the system worked and
       examples of the forms used for the reconciliation. However, at the time of audit,
       we were not informed of such a system nor provided any supporting
       documentation for the system. At no time during our discussions with grantee
       management on this subject was the system disclosed to us. While the system


                                            9
described in management comments meets the intent of our recommendation to
control the use of grantee gas credit cards for personal vehicles, the system still
needs to be formally documented and applied to all grantee gas cards used to
purchase gas for staff using personal vehicles conducting official business.




                                     10
                                                                        APPENDIX I



                         SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG identified , reviewed, and evaluated internal
controls related to the following activities:

   •   Cash disbursements
   •   Contracting
   •   Cost Allocation
   •   Credit cards
   •   Property and Equipment
   •   Internal Management Reporting and Budgeting
   •   Client Trust Fund
   •   Derivative Income.

To obtain an understanding of the internal controls over these areas, policies and
procedures were reviewed , including manuals, guidelines , memoranda, and directives
setting forth current practices. Grantee officials were interviewed to obtain an
understanding of the internal control framework and management and staff were
interviewed as to their knowledge and understanding of the processes in place. To
review and evaluate internal controls, the grantee's internal control system and
processes were cornpared to the guidelines in the Fundamental Criteria of an
Accounting and Financial Reporling System (Fundamental Criteria) contained in the
Accounting Guide. We assessed the reliability of computer generated data provided by
the grantee by reviewing source documentation for the entries selected for review. We
determined that the data were sufficiently reliable for the purposes of this report. This
review was limited in scope and was not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations.

To test controls and the appropriateness of expenditures, we reviewed a judgmentally
selected sample of disbursements that included employee and vendor files, and credit
card purchases. The sample was taken from the period January 1, 2012, through
April 30 , 2013 , and represented 10.9 percent of the $1,992 ,660 .90 disbursed for
expenses other than payroll and consisted of 94 transactions totaling $182,949.30. To
assess the appropriateness of expenditures, we reviewed supporting documentation
such as invoices and vendor lists, and traced the transactions to general ledger details.
Amounts indicated as being allocated to LSC were traced to LSC general ledger
accounts. The appropriateness of those expenditures was evaluated on the basis of the
grant agreements, applicable laws and regulations , and LSC policy guidance.

To review controls over contracts, we requested all contracts and/or agreements
involving disbursements that were entered into during 2012 and 2013 . We also relied


                                           I- 1
on the ILS Check Register to identify the universe of contracts. Of a total of eighteen
contracts identified, we judgmentally selected a sample of seven contracts. We
reviewed documentation maintained in contract files to determine if adequate
procedures were used for securing the contracts and verified that payments made to the
vendor were comparable to contractual amounts.             We also interviewed ILS
management to assess compliance with the LSC Fundamental Criteria.

The cost allocation process was reviewed to determine if the system was in compliance
with the LSC Fundamental Criteria. We also compared the cost allocation process
actually in use to the written description provided by the grantee to determine if the cost
allocation process was operating as documented in the grantee's Accounting Manual.

In addition to testing credit card purchases in the disbursement sample, the credit card
use process was reviewed and compared to the written policies.

Controls over management, reporting and budgeting, and property and equipment were
reviewed by examining current grantee practices and reviewing the written policies
contained in the grantee's Accounting Manual.

To evaluate controls over client trust fund accounting and derivative income, we
interviewed appropriate program personnel , examined related policies and procedures
and traced transactions to general ledger details.

The on-site visit was conducted from May 1, 2013 through May 10, 2013. Audit work
was conducted at the grantee's main office in Indianapolis, Indiana and at LSC
headquarters in Washington, DC. Disbursements tested pertained to the period
January 1, 2012 through April 30, 2013. Contracts reviewed covered the 2-year period
of performance from January 1,2012 through December 31,2013.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.




                                           1-2
                              APPENDIX II




Grantee Management Comments
                                                              •
                                                              I~· Indiana Legal Services, Inc.
r-;O R\>1AN P. MITlGI:R E.X F.CtJI IVE DIRECTOR
JOS EPH E SI\IPSQ'. DIRECTOR or ADMINISTRA I t01'-


BOARD OFFlCIW...'i:
  r
Ml')'   IIndri", r'r,kI~ "r
JI!d~~ C"l .. on HJ'" \. JM. I"     v..:!    l'r~",\l;.'lIt
1'11) 11 ,. CalT, !"' VII; .. l'r~>L.j"r;!
II"H ik'<leI\'Jd".:t, rr(a.~,,:r
It" llMr Sltmmcr.lI« n.1lIry



                             September 26, 2013

                             Ronald D. Mt:rryman
                             Assistant lm:pcctor General for Audit
                             Office for the Inspector (jene ral
                             Legal Services Corporation
                             3333 K Street
                             ]Id       Floor
                              Washington . DC 20007

                              Rc : Draft report on selected internal controls
                                   Recipient /I 515030

                              Dear Mr. Mcn'ym~U1,
                              I am in receipt oryom dran report un the resulL~ ofynur audit of Selected Inh.:rnal CU l1tro!s at
                              Indiana Legal S(''TVices, Inc., dated August 30. 2013. T apprec iate the e;:ffo((s of your oil-site
                              aud it stajJ and the professional manner in which they conducted th" audit. 1 find the resuils of
                              the lludit to be generally positive,

                              Al your request, I am providing you with our comments \'vhich addrC'~<;!:) the twel vc
                              recommendations contained in the drali report . I will addr~ss each of the recommendation!:!
                              individually and state those actions we: plan to take o r h.wc taken to implement the
                              recommendations.

                              PJ -' c co tact me if you need additi onal ·i nformation or wish me to clmify any of my
                               omments.




                              Ex nllive Dire or
                              II diana C ';11 :'t: · · Ct:.~ '
                               151 N. Delaware Street. ,          ~J8   0
                              Indianapoli s. Indiana 46204
                              phone: (317) 631-94 [0 x2245
                              direct: (317) 829-3 087
                              fax: (3 17) 631-9773
                              email: no nnun.mctzgcrrjj,ilsi.nd
                                                                                                                on' I('r: ()I· Aln LI ~ I ~ rII,\TI ON
                                                                                                               Mar~.llI<lug"         Cf llln. :":;1< ,''SO)


    III1 .. J,~.~
                                                                                                                1il N,mll lkl:twon' !'r.(~
                                                                                                                'n.l.""""I... I""..      ".~!f).I
                                                                                                                1' 1...", t j l 71/oJi <o.iI U lAX. {I t1)".I I U71l
            ... I .\"J I.          .                                                                            i<l<l'r;.n., 1(>11 rmr- 11&J0116'i~!~
                                                                                                                .... ,,' h,                " " 14




                                                                            II -1
                          Indiana Legal Services, Inc. #515030
     Conunents to the OIG Report on Selected InternaJ Controls dated August 30, 2013

Indiana Legal Services, Inc. generally agrees with the findings and the recommendations
described in your August 30 th report. Each of the twt:lve recommendations made in the audit
fmdings draft report will be addressed individually below.

Recommendation 1: The Executive Director should ensure that staff members follow lLS
established policies and procedures.

Finding and ILS comment; The 010 audit found that of ninety-four disbursements tested,
twenty-sIx disbursements valued at $6,968 were not allowed, madequately supported or not
properly processed Of the disbursements tested eight totaling $667 used LSC fimds to
purchase bereavement flowers and to pay late fee charges incurred on credit cards and gas
cards. The $667 should not have been charged to the LSC funds and ILS agrees that such
charges are not allowable pursuant to 45 CFR Part 1630. Four of the disbursements that
totaled $304 were to pay late fee charges incUlTed on credit cards and gas cards. Late fees
arose because the turnaround time for the payment of the gas credit cards was fifteen days,
making it difficult for ILS to process the invoice for payment by the due date. ILS will
negotiate with the current credit card company to have the turnaround time to be one month
or ILS will secure a different gas company's credit card that extends the due date to one
month. Regardless, late charges will always be charged to non-restricted funds.

Finding and ILS comment: Supporting documentation was missing for four dIsbursements
(representmg five transactions of LSC funds totalmg $3.-192). ILS agrees that three of the
disbursements totaling $614 did not have the necessary supporting documentation. LSC
should allow such charges since they were used to pay for staff attendance at conferences and
luncheons that had a legitimate business purpose, notwithstanding the names of the staff
persons were not included with the receipt. The moving and storage expenses which OIG
found to total $2,878 actually did have a statement of work signed by Ida Hayes, the office
manager of the Indianapolis branch office, which detailed the number of hours the workers
used to complete the work. Further, the actual charge for the movin g services was $2,776.95
and should be treated as a cost properly supported with documentation. I have attached a
copy of ILS check number 93526 in the amount of $2,776.95. tht: invoice from Stuart's
Moving and Storage for that amount and the bills of lading for 2 separate days dated January
19,2012 and January 20, 2012, both signed by Ms. Hayes.

Finding and ILS comment: Purchase orders were not prepared In accordance with ILS
purchasing procedures in 14 disbursements totaling $2. 809. Eight purchase orders totaling
$1,185 denoted "see attached" referring to each of the invoices for the items purchased.
Clearly those purchase orders were not prepared until the items were ordered trom the
vendor. Six purchase orders totaling $1 ,624 were dated after the order was placed with the
vendor clearly indicating that these purchase orders were prepared after the purchase request.
These 14 disbursem ents do not comply with 11$ policies and procedures and each of the ILS
office managers will be immediately instructed to cease these practices. Nonetheless, LSC




                                          II - 2
should allow these disbursements to stand using LSC funds because ILS did receive the items
and services in question.

Finding and ILS conunent: Of the ninety-four transactions tested, none of the inVOices and
other supporting documentation that )1"ere approved for payment were marked "paid". All of
the transactions tested had cancelled checks proving the vendors had been paid. ILS will.
however, going forward annotate invoices and supporting documentation that the vendor was
paid.

Recommendation 2: The Executive Director should deve lop written policies and procedures
that govern the us e of the gas cards and ensure proper accountability of the gas purchases.

Finding and ILS comment: ILS did not have adequate controls a/the use afthe gas credit
cards. Specifically, ILS did not have written policies and procedures governing these gas
credit cards. ILS does not have written policies and procedures in its accountin g manual
regarding gas credit cards. ILS will develop such written policies for inclusion in our
accounting manual.

Recommendation 3: The Executive Director should develop a reimbursable system based on
mileage claims that ensures gas purchases are for business pUll'oses. An example would be
the use of a travel reimbursement system that uses a fixed rate per mile and a fonn that
captures the following information:
            a) Purpose and location of the business trip
            b) Business miles per trip
            c) A computation of the business miles driven times the fixed rate per mile
            d) Dollar amount of gas purchased using the grantee gas card (receipts req uired)
            e) A computation of amount owed to or by the traveler (item c minus item d)
            f) Signature blocks for both the traveler making the claim and the manager
                approving the claim.

Finding and ILS comment: ILS did not have a process in place to ensure that the cards
used to purchase gas were used only for business purposes. ILS has three gas credit cards.
One is controlled by the Director of Administration and two are controlled by the Director of
the Migrant Farmworker Law Center. The U.s gas credit cards are used to fuel personal cars
used for ILS business purposes. The gas credit cards are primarily used by summer interns
employed by th~ Migrant Fannworker Law Center traveling to migrant fannworker camps.
ILS does have in place a reimbursement system that is based on mileage claims submitted on
travel reimbursement forms paying the interns $0.44 per business mile. The intern submits
travel expense claims on the ILS forms provided and deducts from the total amount claimed
the amowlts that were charged to the credit card. The interns attach the receipts of the gas
purchases to the claim fonn. The system reconunended by the OIG audit is the system that is
used by ILS currently. See an examp le that an intern claimed that is attached. That
notwithstanding, the written policies and procedures U.s will develop governing the use of
gas credit cards will include a reimbursement syst em based on mileage claims, which
incorporates our current system at practice.

Recommendation 4: The Executive Director should ensure written policies and procedures
for contracting address all required areas contained in LSC's Fundamental Cnteria.




                                         11-3
Finding and ILS comment: lLS operating practir.:es in some areas reviewed were not
documented in the ILS accounting manual to comply with the Fundamental Criteria
contained in the LSC accounting gUIde. ILS' current practices in use involving contracting
allocation generally conform to the Fundamental Criteria but these practices need to be folly
documented. The ILS contracting policies did not include all the necessary requirements of
the LSC's Fundamental Criteria. The n.s accounting manual will be revised in accordance
with the provisions 3-5. 16 of the Fundamental Criteria covering contracting and will include
written procedures for various types of contracts, competition requirements, dollar thresholds
for approval, documentati on to support contractin g dec isions, contract modification, and
contract oversight responsibilities. I should emphasize that, of the seven contracts reviewed
by OIG, all were found to have adequate documentation on file, supporting contract
decisions, and payments made to vendors pursuant to contract tenns.

Recommendation 5: The Executive Director should ensure written policies and procedures
for cost allocations are revised to full y describe the process as practi ced by the program .

Finding and ILS conunent: [LS written procedures In the ILS accounting manual, whIle
addressing its allocation system, dId not fully describe the process practlced by ILS. Direct
costs were determined by the percent of time staff members were assigned to specific grants.
ILS will ensure that its accounting manual contains written policies and procedures for cost
allocation that reflects the practice that the percent of time staff members assigned to a grant
are the same percentages allocated for costs charged to a grant.

Recommendation 6: The Executive Director should ensure indirect costs                    in the
administrative office are allocated based on the direct time percentage for the grant.

Finding and ILS comment: The OIG noted that allowable indirect costs incurred by the
administratzve office were almost all charged to LSC grant funds. The OIG wants ILS to
insure zhat the indirect costs for the administrative overhead of a grant be allocated to that
grant based on the direct time percentage for the grant. ILS will review all of its contracts
with funders to detennine which of these grants permit charges for indirect costs for
administration, For example, the Low Income Taxpayer Clinic funded by the IRS penn its
five percent of the grant to be charged to indirect costs. Likewise, the Equal Justice Works
grant pennits indirect administrative costs to be charged to the grant. ILS believes that its
United Way and Area Agency contracts do not pennit indirect administrative costs to be
charged to their grants. ILS will explore with these agencies whether they will allow such
indirect charges. Generally, these grants expect ILS to match such grants and it is out of that
match that administrative indirect costs are allocated.

Recommendation 7: TIle Executive Director should ensure written policies for derivative
income that ensure such income is properly accounted for and allocated to funding sources.

Finding and ILS comment: JLS had a practice ofallocating one hundred percent o/interest
and attorney's foes to the LSC. However, ILS does not have policlel' and procedures on
allocating derivative income. U.s acknowledges that ILS derivative income allocated to LSC
requires such income to be treated as restricted income. ILS will update its accounting
manual with new written policies and procedures that include allocation of derivative income




                                           11-4
to properly account for attorney's fees and interest, These written policies and procedures
will be communicated to staff to ensure that it is management 's intention that such income
will be treated as restricted income and to properly account for such income hy allocating it
to its funding source,

Recommendation 8: The Executive Director should ensure written policies on disposal of
ILS property and reconciliation of the physical inventory count with the property records.

Finding and ILS comment: JLS fixed asset written polzcies and procedures were mostly
comparable to LSC Fundamental Criteria except for the lack of policies for the disposal of
ILS property. The ILS accounting manual will be updated to include new written policies and
procedures for the disposal of u.s propl!rty. ILS will reconcile its physical inventory count
with its property records.

Recommendation 9: The Executive Director should develop compensating inventory
procedures if grantee staff is not available to conduct a full and independent inventory. Some
compensating procedures could be to independently high inventory value and sensitive assets
or recruit volunteers to conduct the physical inventory.

Finding and ILS comment; Inventories were not conducted at least once every two years in
some offices as reqUIred by the Fundamental Criteria. Of the nrne offices reviewed by the
OIG, some dId not experience bi-annual inventories as required by the ILS accounting
manual. A partial explanation for not conducting bi-annual Inventories was the difficulty of
coordinating staff schedules for the inventory count. Currently, only the ILS Indianapolis
branch office has yet to receive its bi-annual inventory. The Indianapolis branch inventory
will be completed by the end of the calendar year 2013 . To the e>.."tent that hi-arulUal
inventories were not completed in a timely basis because of the difficulty of coordinating
staff schedules. ILS will develop a compensating inventory procedure. The compensating
policies and procedures will be in writing and included in the updated ILS accounting
manual. The ~ompensating procedures will pennit branch office staff, instead of just
administrative office staff, to conduct the physical inventory of their office, especially when
the inventory will include high value and sensitive assets. The ILS Controller will have the
ILS auditor. Blue & Company. review and comment upon the proposed compensating
written policies and procedures prior to implementing them.

Recommendation 10: The Executive Director should improve the physical inventory count
process to ensure that all items on inventory count sheets have annotations to indicate the
results of the inventory.

Finding and ILS comment: lLS inventory count sheets were not fully completed. The count
sheets are in an Excel spreadsheet which ILS uses to record physical inventory. The fixed
asset inventory is kept in the fix ed asset software. ILS records the physical inventory by
marking an X beside items that were found, D by items that were disposed of and. when
items were not annotated, the items were not located. lne executive director has directed the
admirustrative staff to ensure that all items recorded in the inventory are counted and
properly annotated. If items are not found, the executive director has directed the
administrative staff to follow up with branch office staiI to detelmine the reason that the
property is missing. High value computers are kept and maintained at a server fann in




                                          11-5
Columbus. IN pursuant to an agre¢fllent with that company. Those servers are not yet
recorded in the physica1 inventory, but were in the fixed asset inventory. Goi ng forward. IT
staff will be instructed to tag those servers and count them on a bi-annual physical inventory.
Such assets will be accounted for in the inventory notwithstanding they are not physically
located in any of the ILS branch offices or the administration office.

Recommendation 11 : 111e Executive Director should update the property r~cords to include
tag numbers as required by LSC Fundamental Criteria and also to enable the grantee to easi ly
trace items from the inventory count sheets to the property records.

Finding and ILS comment: ILS property records (fixed asset system) did not include a
unique identifier such as a tag number required by LSC Fundamental Criteria. ILS property
records do in clude tag numbers. However, not all ILS property had a tag number affixed to it.
For example, the ILS servers housed at the server fann in Columbus, IN, were not tagged . J
have instructed the administration staff and the tech staff to tag all ILS property that is found
in the ILS property records and the fixed asset system.

Recommendation 12: The Executive Director should ensure that the results of physical
inventory counts are reconciled with property records so as to address any differences
between quantities detennined by the inventory and those shown in the accounting records.

Finding and ILS comment: ILS did not reconcile the results of the physical inventory count
to the property records. ILS will update the ILS accounting manual to include written
policies and procedures requiring the physical inventory to be reconciled with the physical
inventory count of the property records. The policies will ensure that all assets purchased by
ILS will be in the physica1 inventory and that the physical inventory count will be recorded to
the fixed asset records and vice~a·versa.




                                          11-6
